No.

IN THE
SUPREME COURT OF THE UNITED STATES

LUIS GOMEZ-CASTRO, Petitioner

Ve

UNITED STATES OF AMERICA,
Respondent

On Petition for Writ of Certiorari to the
Tenth Circuit Court of Appeals

MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS

‘The petitioner, Luis Gomez-Castro, asks leave to file the enclosed petition for
writ of certiorari without payment of costs and to proceed é7 forma pauperis in
accordance with Supreme Court Rule 39. ‘The filing of this petition is a continuation
of the representation of the petitioner under a Criminal Justice Act (18 U.S.C. Section
3006A) appointment by the United States District Court for the District of Utah and
the Tenth Circuit Court of Appeals.

Wherefore, petitioner Luis Gomez-Castro prays for leave to proceed in forma
pauperis.

    

‘“HLEEN A. LORD
Lord Law Firm, LLC
1544 Race Street
Denver, CO 80206
phone: (303) 394-3302
fax: (303) 321-7781
kathleen@klordlaw.com
